Department of Homeland Security
   Ofﬁce of Inspector General

            The State of Illinois' Management of 

             State Homeland Security Grants 

                      Awarded During 

              Fiscal Years 2004 through 2006 





OIG-09-06                                     October 2008
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       October 29, 2008

                                       Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

The attached report presents the results of the audit of the State of Illinois’ management
of the State Homeland Security Grants it was awarded during Fiscal Years 2004 through
2006. We contracted with the independent public accounting firm Foxx and Company to
perform the audit. The contract required that Foxx and Company perform its audit
according to generally accepted government auditing standards. Foxx and Company’s
report identifies reportable conditions where State management of the grant funds could
be improved, resulting in five recommendations addressed to the Administrator, Federal
Emergency Management Agency. The report also identifies some potential best practices
that could be shared with other states and territories. Foxx and Company is responsible
for the attached auditor’s report dated October 3, 2008, and the conclusions expressed in
the report.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.



                                       Richard L. Skinner 

                                       Inspector General 

October 3, 2008

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W., Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of Illinois’ management of Department
of Homeland Security State Homeland Security Grants it received during Fiscal Years
2004 through 2006. The audit was performed in accordance with our Task Order
No. TPD-ARC-BPA-07-0013 September 24, 2007. This report presents the results of the
audit and includes findings, recommendations, and some “best practices” to help improve
Illinois’ management of the audited State Homeland Security Grant Programs.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report of program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Illinois’ financial statements or the funds claimed in the Financial Status Reports
submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company




Martin W. O’Neill
Partner
Table of Contents/Abbreviations 



Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 6 


     State Grants Management Practices Were Generally Effective, But Some

         Improvements Needed ............................................................................................ 6 

     Recommendations ........................................................................................................ 9 

     Management Comments and OIG Analysis .............................................................. 10 


     Consistent Use of Effective Management Practices Could Improve Response 

         Team Readiness .................................................................................................. 10 

     Recommendations ...................................................................................................... 15 

     Management Comments and OIG Analysis .............................................................. 16 


     Illinois State Level Programs Could Be Considered a Best Practice ......................... 16 


Appendices

     Appendix A:                 Purpose, Scope, and Methodology ............................................... 22 

     Appendix B:                 Organization Chart ....................................................................... 25 

     Appendix C:                 Report Distribution ...................................................................... 26 



Abbreviations

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    Fiscal Year            

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  Foxx and Company completed an audit of the State of Illinois’
                  management of Department of Homeland Security State Homeland
                  Security Grants awarded during fiscal years 2004 through 2006.
                  The audit objectives were to determine if the State Administrative
                  Agency (1) effectively and efficiently implemented the grant
                  programs, (2) achieved program goals, and (3) spent funds in
                  accordance with grant requirements. The State was awarded
                  approximately $266.6 million in Homeland Security Grants by the
                  Federal Emergency Management Agency.

                  Generally, the State did an efficient and effective job of
                  administering the program requirements, distributing grant funds,
                  and ensuring that all of the available funds were used. The State
                  used reasonable methodologies for assessing threats,
                  vulnerabilities, capabilities, and prioritized needs. The State
                  monitored performance, measured preparedness improvements,
                  and complied with cash management and status reporting
                  requirements. Also, the State generally spent the grant funds in
                  accordance with grant requirements and State-established
                  priorities, and appropriately allocated funding based on threats,
                  vulnerabilities, capabilities, and priorities. The procurement
                  methodology was in conformance with the State’s strategy.
                  However, improvements were needed to strengthen equipment and
                  property accountability, better support reimbursement requests,
                  and enhance tracking of limited-life inventory items. Further,
                  consistent use of management practices introduced by subgrantees
                  could improve readiness.

                  Some aspects of Illinois’ program management warrant
                  recognition as “best practices” for consideration by other states to
                  enhance their programs. These practices are discussed in detail at
                  the end of this report. Our five recommendations call for the
                  Federal Emergency Management Agency Administrator to initiate
                  improvements to strengthen management controls and enhance
                  readiness. Federal Emergency Management Agency and State
                  officials verbally concurred with the recommendations, but did not
                  provide written comments in response to the draft report.


            The State of Illinois’ Management of State Homeland Security Grants 

                      Awarded During Fiscal Years 2004 through 2006 


                                          Page 1
Background
                            The Homeland Security Grant Program is a federal assistance grant
                            program administered by the U.S. Department of Homeland
                            Security (DHS), Grant Programs Directorate within the Federal
                            Emergency Management Agency (FEMA). The current Grant
                            Programs Directorate, hereafter referred to as FEMA, began with
                            the Office of Domestic Preparedness, which was transferred from
                            the Department of Justice to DHS in March 2003. The Office of
                            Domestic Preparedness was subsequently consolidated into the
                            Office of State and Local Government Coordination and
                            Preparedness which, in part, became the Office of Grants and
                            Training, and subsequently became part of FEMA.

                            Although the grant program was transferred to DHS, applicable
                            Department of Justice grant regulations and legacy systems still
                            were used as needed to administer the program. For example, the
                            State Administrative Agency entered payment data into the Office
                            of Justice Programs’ Phone Activated Paperless Request System,
                            which was a drawdown payment system for grant funds.

                            Homeland Security Grant Programs

                            The Homeland Security Grant Program provides federal funding to
                            help state and local agencies enhance their capabilities to prevent,
                            deter, respond to, and recover from threats or acts of terrorism.1
                            The Homeland Security Grant Program encompasses several
                            different federal grant programs, and depending on the fiscal year,
                            included some or all of the following programs: the State
                            Homeland Security Grant Program, the Urban Areas Security
                            Initiative, the Law Enforcement Terrorism Prevention Program,
                            the Citizen Corps Program, the Emergency Management
                            Performance Grants, and the Metropolitan Medical Response
                            System Program Grants.

                            State Homeland Security Grant Program provides financial
                            assistance directly to each of the states and territories to prevent,
                            respond to, and recover from acts of terrorism. The program
                            supports the implementation of the State Homeland Security
                            Strategy to address the identified planning, equipment, training,
                            and exercise needs.

1
 The goal of the FY 2006 Homeland Security Grant Program included all activities and capabilities
necessary to address the entire range of threats and hazards, including terrorism, as well as terrorist attacks.
The FY 2004 and 2005 Programs addressed only threats from terrorists.

                     The State of Illinois’ Management of State Homeland Security Grants 

                               Awarded During Fiscal Years 2004 through 2006 


                                                     Page 2
      Law Enforcement Terrorism Prevention Program provides law
      enforcement communities with funds to support the following
      prevention activities: information sharing to preempt terrorist
      attacks, target hardening to reduce vulnerability of selected high
      value targets, recognition and mapping of potential or developing
      threats, counterterrorism and security planning, interoperable
      communications, interdiction of terrorists before they can execute
      a threat, and intervention activities that prevent terrorists from
      executing a threat. These funds may be used for planning,
      organization, training, exercises, and equipment.

      Citizen Corps Program is the department’s grass-roots initiative
      to actively involve all citizens in hometown security through
      personal preparedness, training, and volunteer service. Funds are
      used to support Citizen Corps Councils in engaging citizens in
      preventing, preparing for, and responding to all hazards, including
      planning and evaluation, public education and communication,
      training, participation in exercises, providing proper equipment to
      citizens with a role in response, and managing Citizen Corps
      volunteer programs and activities.

      Urban Areas Security Initiative provides financial assistance to
      address the unique planning, equipment, training, and exercise
      needs of high risk urban areas, and to assist them in building an
      enhanced and sustainable capacity to prevent, respond to, and
      recover from threats or acts of terrorism. Allowable costs for the
      urban areas are consistent with the State Homeland Security Grant
      Program, and funding is expended based on the Urban Area
      Homeland Security Strategies.

      Metropolitan Medical Response System Program supports
      jurisdictions in further enhancement and sustainment of their
      integrated, systematic preparedness to respond to mass casualty
      incidents during the first hours of a response. This includes the
      planning, organizing, training, and equipping concepts, principles,
      and techniques, which enhance local jurisdictions’ preparedness to
      respond to the range of mass casualty incidents – from chemical,
      biological, radiological, nuclear, and explosive events to epidemic
      outbreaks, natural disasters, and large-scale hazardous materials
      incidents.

      Emergency Management Performance Grant funds are used to
      support comprehensive emergency management at the state and
      local levels and to encourage the improvement of mitigation,
      preparedness, response, and recovery capabilities for all hazards.

The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 3
      DHS is responsible for leading and supporting the nation in a
      comprehensive, risk-based, all-hazards emergency management
      program, and these performance grant funds are a primary means
      of ensuring the development and maintenance of such a program.
      Funds may also be used to support activities for managing
      consequences of acts of terrorism.

      State Administrative Agency

      The governors of each state appoint a State Administrative Agency
      to administer the Homeland Security Grant Program. The State
      Administrative Agency is responsible for managing these grant
      programs in accordance with established federal guidelines. The
      State Administrative Agency is also responsible for allocating
      funds to local, regional, and other state government agencies.

      The Illinois Emergency Management Agency is the designated
      State Administrative Agency for the State’s Homeland Security
      Grant programs. Since May 2000, the Illinois Terrorism Task
      Force (chaired and administered by Illinois Emergency
      Management Agency officials and staff) has been the catalyst and
      driving force for the planning and execution of the State’s
      Homeland Security Grant programs. The Task Force was created
      and then made permanent by Governors’ Executive Orders in 2000
      and 2003. An organization chart for the Illinois Emergency
      Management Agency is included as Appendix B.

      Grant Funding

      The State of Illinois received approximately $266.6 million in
      funds from the Homeland Security Grant Program during Fiscal
      Years (FYs) 2004 through 2006. Table 1 displays a breakdown of
      the grant funds by year and funded activity. Not all funded
      activities were part of the Homeland Security Grant Program
      during each of the fiscal years. Urban Areas Security Initiative
      grant funds were excluded from the audit scope by the DHS Office
      of Inspector General (OIG) for the Illinois audit performed by
      Foxx and Company.




The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 4
                                         Table 1
                    Illinois Homeland Security Grant Awards
                          Fiscal Years 2004 through 2006
                              Grant Programs (‘000s)
                               2004            2005           2006
                            Homeland        Homeland       Homeland
  Program Activity           Security        Security       Security        Total
                              Grant           Grant          Grant
                            Program         Program        Program
  State Homeland
  Security Grant               $55,841       $ 35,299        $19,080    $110,220
  Program
  Law Enforcement
  Terrorism Protection         $16,570       $ 12,836        $18,200    $ 47,606
  Program
  Citizen Corps
                               $ 1,160       $     448       $   633    $ 2,241
  Program
  Metropolitan Medical
                                   Not
  Response System                            $     228       $   232    $      460
                              Included
  Program
  Urban Areas Security             Not
                                             $ 48,000        $52,260    $100,260
  Initiative                  Included
  Emergency
                                   Not                            Not
  Management                                 $ 5,782                    $ 5,782
                              Included                       included
  Performance Grant
         Total                 $73,571       $102,593        $90,405    $266,569


      Three subgrantees received the majority of the combined State
      Homeland Security Grant Program and Law Enforcement
      Terrorism Protection Program funding: the Mutual Aid Box
      Alarm System ($33.4 million), the Illinois Law Enforcement
      Alarm System ($41.4 million), and the Illinois State Police ($15.0
      million. The Mutual Aid Box Alarm System and the Illinois Law
      Enforcement Alarm System are two statewide mutual aid
      organizations that are further defined starting on page 19. These
      organizations used the funds largely to acquire equipment, training,
      and exercises for numerous special response teams located
      strategically throughout the State. The remaining $68 million from
      these two programs was allocated to state agencies and local
      jurisdictions.

      Foxx and Company completed an audit of the State of Illinois’
      management of the State Homeland Security Grants awarded
      during FYs 2004 through 2006. The objectives of the audit were
      to determine whether the State Administrative Agency
      (1) effectively and efficiently implemented State Homeland
The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 5
                  Security Grant Programs, (2) achieved the goals of the programs,
                  and (3) spent funds in accordance with grant requirements. The
                  goal of the audit was to identify problems and solutions that would
                  help the State of Illinois prepare for and respond to terrorist attacks
                  and other hazards, as applicable to the goals of the programs. Nine
                  researchable questions provided by the DHS OIG established the
                  framework for the audit. The researchable questions were related
                  to the State Administrative Agency’s planning, management, and
                  results evaluations of grant activities. Appendix A provides
                  additional details on the objectives, scope, and methodology of this
                  audit, including the nine researchable questions.


Results of Audit
     State Grants Management Practices Were Generally Effective,
     But Some Improvements Needed
                  Overall, the State did an efficient and effective job of
                  administering the program requirements, distributing grant funds,
                  and ensuring that all of the available funds were used. The State
                  used reasonable methodologies to assess threats, vulnerabilities,
                  capabilities, and needs. The State monitored performance,
                  measured preparedness improvements, and complied with cash
                  management and status reporting requirements. Also, the State
                  generally spent the grant funds in accordance with grant
                  requirements and State-established priorities, and appropriately
                  allocated funding based on threats, vulnerabilities, capabilities, and
                  priorities. The procurement methodology was in conformance
                  with the State’s strategy.

                  However, improvements were needed in several areas to
                  strengthen accountability for equipment and property, better
                  support subgrantee reimbursement requests, and enhance tracking
                  of limited-life inventory items. Illinois officials have already
                  begun initiatives in these areas where we identified improvement
                  opportunities.

                  Inventory System Needed for Fire Services Assets

                  The Mutual Aid Box Alarm System did not have a central
                  inventory system to control and account for millions of dollars in
                  equipment and other personal property procured with Homeland
                  Security Grant Funds. A central inventory system would provide
                  the Mutual Aid Box Alarm System with a tool to better manage
            The State of Illinois’ Management of State Homeland Security Grants 

                      Awarded During Fiscal Years 2004 through 2006 


                                          Page 6
      equipment at local fire departments around the State of Illinois. It
      would also provide a system to monitor and safeguard equipment,
      centralize control, and facilitate decisions on what to buy and for
      whom.

      Code of Federal Regulations Title 44 § 13.32, Equipment, requires
      that property records be maintained that include the property’s
      cost, description, identification number, location, use, condition,
      and ultimate disposition. Title 44 § 13.3, Definitions, defines
      equipment as tangible, non-expendable, personal property having a
      useful life of more than 1 year and an acquisition cost of $5,000 or
      more per unit. Title 44 § 13.32 also requires that a control system
      be developed to ensure adequate safeguards to prevent loss,
      damage, or theft of equipment and other personal property
      procured with federal funds.

      The State Administrative Agency relied on two major local
      subgrantees (the Mutual Aid Box Alarm System and Illinois Law
      Enforcement Alarm System) to administer subgrants for equipping,
      training, and exercising numerous special response teams. The
      State relied on these subgrantees to manage and safeguard very
      large inventories of equipment and property in numerous locations
      across the State. However, the Mutual Aid Box Alarm System did
      not have a central inventory system to control and account for
      millions of dollars in equipment and other personal property.

      A Mutual Aid Box Alarm System official advised us the
      organization is still evolving in efforts to identify and develop
      ways to improve its operations. Up to now, the organization has
      relied on local fire service officials to maintain and control the
      inventory.

      The State Administrative Agency advised us that the Mutual Aid
      Box Alarm System will adopt a computerized central inventory
      system patterned along the same lines of the system already in use
      by the Illinois Law Enforcement Alarm System. The State
      Administrative Agency believes that the Illinois Law Enforcement
      Alarm System’s inventory system has proven to be very successful
      and highly beneficial in the management, use, and safeguarding of
      property and equipment critical to first responder capabilities.
      Using essentially the same type of system in managing and
      controlling the property procured by the Mutual Aid Box Alarm
      System could provide similar benefits.




The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 7
      Reimbursement Support Can Be Improved

      Documentation received by the State Administrative Agency to
      support reimbursement requests did not always include evidence of
      delivery and unique property identification numbers. The Agency
      relied on subgrantees to maintain the supporting documents, but
      did not require that the documentation be included with the
      reimbursement requests. Without the appropriate documentation,
      the State Administrative Agency had no proof that the procured
      items had been received or appropriately identified for inventory
      control purposes at the time reimbursement was requested.

      Code of Federal Regulations Title 44, § 13.20 and the Department
      of Homeland Security Financial Guide, require that grantees
      maintain an accounting system together with adequate internal
      controls to assure grant expenditures are allowable, allocable,
      authorized, and consistent with federal, state, and grant
      requirements.

      The State Administrative Agency staff reviewed all subgrantee
      reimbursement requests to assure that the items procured were
      consistent with state and federal requirements. To be approved,
      reimbursements must be accompanied by supporting invoices and
      related documents that authenticate the transaction. However, the
      State did not require that reimbursement requests for equipment
      and other property include (1) evidence or certification that the
      items had been received by the subgrantee from the vendor, and (2)
      the serial number or other unique number for each item purchased.

      State Administrative Agency officials said that they relied on the
      subgrantees to ensure that all items were delivered and that the
      items purchased have serial numbers or other unique identification
      numbers. Requiring subgrantees to include affirmation or
      evidence of delivery and property identification numbers in
      support of their reimbursement requests would add credibility and
      authenticity to the requests, and provide better oversight of
      subgrantees at the state level. Such documentation would also
      facilitate subsequent verification of purchases and tracing to
      inventory records.

      Expiration Dates for Limited-Life Inventory Items Are
      Manually Tracked

      The State’s major subgrantees have established or are developing
      sophisticated computerized systems for inventory of equipment

The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 8
       and property procured with grant funds. However, the major
       subgrantees have not automated the task of identifying and
       tracking items that need to be removed from inventory because of
       limited shelf-life.

       Property items procured with grant funds for first responders often
       have specified expiration dates or limited useful lives. Examples
       include filtration canisters for self-contained breathing apparatuses
       and other personal protection equipment. Using some of these
       items after their expiration dates could be hazardous to the users.
       Also some such items can be returned to the vendor for
       replacement free of charge. The State and subgrantees require that
       such property be removed from the active inventory when the
       expiration date arrives or when the property’s useful life is over.

       Local first responder team officials said that they manually track
       items with expiration dates so that the proper actions can be taken
       when the dates arrive. The officials said that they would like their
       parent subgrantees to include in their master inventory system a
       mechanism for identifying individual items’ expiration dates and
       providing advance notices of coming expiration dates.

       Establishing management and control systems to ensure that first
       responder property is adequately inventoried and safeguarded has
       been an evolving and learn-as-you go process. After having
       progressed to establishing centralized property inventory recording
       and verification systems, the subgrantees are now in a position to
       automate supporting processes to optimize the use of such systems.

       The effectiveness and efficiency of first responder team efforts to
       track and replace property with expiring useful lives can be
       improved by revising the central inventory systems to include
       expiration date tracking and advance notifications of needed item
       replacement.

Recommendations
       We recommend that the Administrator, Federal Emergency
       Management Agency, require the Director of the Illinois
       Emergency Management Agency to:

            Recommendation #1: Direct the Mutual Aid Box Alarm
            System to develop and implement a central property and
            equipment inventory system, considering the Illinois Law
            Enforcement Alarm System as a possible model.

 The State of Illinois’ Management of State Homeland Security Grants 

           Awarded During Fiscal Years 2004 through 2006 


                               Page 9 

                  Recommendation #2: Direct subgrantees to include in their
                  reimbursement requests:

                  a.	 Affirmation or evidence of receipt of all of the items
                      included in reimbursement requests, and

                  b. 	 Unique identification numbers for each of the items.

                  Recommendation #3: Direct major subgrantees to modify
                  their automated central inventory systems to identify property
                  items in their systems with expiration dates and provide first
                  responders with advance notices of approaching item
                  expiration dates.

     Management Comments and OIG Analysis
             FEMA and State officials verbally concurred with the finding and
             all recommendations concerning opportunities to improve selected
             aspects of the State’s grants management practices. With respect
             to Recommendation 2.b., the State officials said their actions
             would take into consideration the need to avoid unnecessarily
             delaying the reimbursement process. We agree that timely
             reimbursement is important and that the officials should avoid
             unnecessary delays.

             The Administrator, Federal Emergency Management Agency,
             needs to provide corrective actions for the recommendations and a
             plan to implement the actions within 90 days.


Consistent Use of Effective Management Practices Could Improve
Response Team Readiness
             The Illinois Terrorism Task Force and the three major subgrantees,
             the Mutual Aid Box Alarm System, the Illinois Law Enforcement
             Alarm System, and the Illinois State Police, have made aggressive
             efforts to ensure special response team readiness. Collectively, the
             three major subgrantees have developed effective management
             practices for ensuring that their respective teams are adequately
             equipped, trained, and exercised to readily respond to a terrorist
             attack or other disaster. Individually, however, because the
             practices were newly implemented, none of the subgrantees were
             fully using them. The Task Force could ensure, through its state-
             level monitoring program and discussions at Task Force meetings,

       The State of Illinois’ Management of State Homeland Security Grants 

                 Awarded During Fiscal Years 2004 through 2006 


                                     Page 10 

      that each of the three major subgrantees is making optimum use of
      the management practices for their organization.

      Each of the following management practices are used by at least
      one of the three major subgrantee organizations with special
      response teams:

      �	   Establishing and distributing to response team leaders current
           and complete listings of standardized team equipment and
           training requirements to facilitate interoperability,
           procurement, and progress evaluation,

      �	   Conducting recurring detailed comparisons of standardized to
           actual equipment inventory and training histories to identify
           gaps that need to be filled,

      �	   Conducting recurring “staff assistance visits” to each response
           team by senior subgrantee officials to make a comprehensive
           evaluation of the team’s capability and readiness, and

      �	   Instituting formal team “validation” programs under which
           each team’s performance is periodically assessed and rated by
           experienced peer reviewers.

      We believe that the use of all four practices by all three major
      subgrantees and attention to these activities as part of the Task
      Force’s monitoring program is needed to help ensure that the teams
      remain adequately equipped, trained, and capable.

      Ensuring Complete and Current Standard Equipment and
      Training Lists

      Consistent with the state’s objective of standardizing response
      teams’ equipment and training, each of the three major subgrantees
      has developed standard listings of equipment items and training
      that each of their respective teams must have to function
      effectively. The completeness and currency of the listings needed
      to be improved, as indicated by the following conditions identified
      during our field visits to selected response teams:

      �	   While all three of the major subgrantees had established
           standardized requirements for basic formal courses, only one of
           the three provided a standardized list of required classes and
           exercises beyond the basic formal courses. Training of special
           response teams typically included (1) basic formal classroom

The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 11
           courses approved by FEMA, such as the 40-hour hazardous
           materials operations course, and (2) less formal but critical
           routine classes and exercises, usually during regular work
           shifts at the team’s home facility, to test team members’
           physical fitness and improve their proficiency in using their
           equipment and performing other team functions.

      �	   Standardized equipment and training lists needed to be current
           and complete. Response team officials identified a few
           instances in which their equipment inventories included items
           that were not, but probably should be, on the standardized
           equipment list. Similarly, the officials identified instances in
           which training course content changes and pre-requisites
           needed to be considered in updating the standardized training
           list. In one case, a team official said he had not seen the
           standardized equipment list.

      Comparing Actual Equipment and Training Records to
      Standards to Identify Gaps

      One of the three major subgrantees had established a formal
      certification process for assessing whether each team had received
      the equipment and training as required in the standardized lists.
      However, the certifications included only the basic formal
      classroom courses. The certifications excluded the less formal
      routine classes and exercises, even though the classes and exercises
      were considered critical to team readiness. Conditions at the other
      two major subgrantees included the following:

      �	   One of the other major subgrantee’s teams maintained
           equipment and training records but did not periodically make
           detailed comparisons of the records with the standardized
           requirements. Our comparisons during our visits to 8 of the
           subgrantee’s 83 response teams identified instances in which
           equipment inventories did not include required items and team
           members had not completed required training courses.

      �	   For the third subgrantee we concluded that comparisons of
           equipment inventory and training records with standardized
           requirements could not be readily made because (1) training
           requirements and team rosters as explained to us were unclear,
           (2) identification of equipment items would have required
           time-consuming analysis of inventory records, and (3) training
           records were maintained by the Illinois Fire Service Institute
           and were not readily accessible.

The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 12
      Comprehensive Site Visits to Accurately Assess Response
      Team Readiness

      One of the three major subgrantees had established a program of
      site visits to make formal comprehensive assessments of each of its
      response teams’ capability and readiness. The other two
      subgrantees’ team monitoring efforts did not include such
      comprehensive site visits.

      The site visits program established by the one subgrantee included
      a 17 page instrument for senior subgrantee officials to assess and
      record their findings regarding all major aspects and functions of
      the response team capabilities and readiness, including the
      following:

      �    Governance and administration matters,
      �    Dispatch operations,
      �    Team field operations,
      �    Warehouse materials and resources,
      �    Hazardous Materials Team readiness,
      �    Technical Rescue Team readiness,
      �    Underwater Rescue and Recovery Team readiness, and
      �    Incident Management Assistance Team readiness.

      For each of the aspects or functions listed above, the assessment
      instrument called for the administering official to answer a series
      of questions about the adequacy of the team’s capability and
      readiness. The answers were in the form of a color-coded rating
      for each question: green (for “go”), yellow (for “needs
      improving”), or red (for serious problem needing attention). The
      instrument included space for explanatory comments and
      identification of responsible parties and target dates for any needed
      follow-up. Completed comprehensive site visits identified
      significant areas where improvements were needed to ensure that
      the response teams were effectively equipped, trained, and in a
      constant state of readiness to respond.

      Illinois Terrorism Task Force and subgrantee officials said that
      comprehensive site visit programs, similar to that described above,
      could be tailored for use by the other two subgrantees.




The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 13
      Recurring Validation to Ensure Team Capability, Training,
      and Performance

      One subgrantee did not have a formal program for validating
      response capability, training, and performance. Two of the three
      major subgrantees were developing or had adopted formal
      programs under which their response teams were periodically
      validated through participation in rigorous exercises to test their
      capability, training, and performance. An important feature of the
      validation process was the use of peer reviewers to assess the
      team’s performance in the exercises.

      One major subgrantee, the Mutual Aid Alarm Box System, had
      established a formal validation program in 2004, which was
      ongoing at the time of our review. The subgrantee’s goal was to
      put each of its special response teams through an intensive
      revalidation exercise every 3 years. The exercises usually were
      organized and conducted at the Illinois Fire Service Institute. Peer
      reviewers made detailed assessments of the team’s performance in
      the exercises. The Illinois Terrorism Task Force, the subgrantee,
      and the Illinois Fire Service Institute considered the validation
      exercises a valuable tool to help ensure that the response teams
      could perform their critical duties as expected.

      Another major subgrantee, the Illinois Law Enforcement Alarm
      System, had initiated a pilot program to develop a validation
      process for its special response teams. The subgrantee’s Executive
      Director told us that, unlike the fire service hazardous materials
      and technical rescue teams, there was no FEMA-accepted
      validation for the law enforcement weapons of mass destruction
      teams. He said that his organization was working with the
      National Center for Biomedical Research and Training at the
      Louisiana State University to develop the needed validation
      process.

      The third major subgrantee, the Illinois State Police, did not have a
      validation process similar to the other two major subgrantees. An
      Illinois State Police official told us that, initially, each of the
      organization’s three weapons of mass destruction response teams
      was considered “validated” upon completion of the Hazmat
      Operations and Technician courses and that validation was
      maintained via the team’s participation in national-level exercises.
      The other two subgrantee organizations considered their formal
      validation programs necessary, even though their teams also
      participated in national-level exercises.

The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 14
         State-Level Attention Could Enhance Response Team
         Readiness

         While the subgrantees were making commendable efforts to ensure
         that their response teams were adequately equipped, trained, and
         validated, the issue of team readiness was not included in the
         State’s monitoring policy statement. The subject of team readiness
         was also not discussed at Task Force monthly meetings, which are
         primary tools for evaluating grant program performance. Visibility
         at the State level would significantly enhance the importance of
         readiness to the State’s overall preparedness posture.

         In March 2008, the Illinois Terrorism Task Force issued a policy
         statement regarding its monitoring of subgrantee activities. While
         emphasizing that subgrantees are responsible for monitoring their
         projects, the statement also said that the Task Force was to provide
         necessary monitoring of subgrantees to ensure achievement of
         objectives and conformance with requirements. The policy
         statement’s discussion of the Task Force’s monitoring plans
         included several specific programs, activities, and requirements.
         However, the statement did not include any specific reference to
         the capability and readiness of special response teams.

         We also noted from our review of the minutes for several Task
         Force meetings during 2004, 2005, and 2006 that the efforts to
         maintain the capability and readiness of the special response teams,
         and the results of the subgrantees’ monitoring of the teams, were
         not discussed in detail.

         Capability and readiness of the special response teams is a
         paramount objective of the Illinois program. Emphasis on this
         objective at the State level would ensure that the three major
         subgrantees continue to strive toward this goal.

Recommendations
         We recommend that the Administrator, Federal Emergency
         Management Agency, require the Director, Illinois Emergency
         Management Agency to:

              Recommendation #4: Enhance the capability and readiness of
              local and state special response teams by requiring the three
              major subgrantees to continue, modify, or adopt response team
              management practices as necessary to include:


   The State of Illinois’ Management of State Homeland Security Grants 

             Awarded During Fiscal Years 2004 through 2006 


                                 Page 15
                  a.	 Maintenance and distribution of clear, complete, and up-to­
                      date standardized equipment and training requirements,

                  b.	 Recurring, detailed comparisons of equipment and training
                      requirements to inventories and training histories for each
                      team and team member.

                  c.	 Recurring visits to each team to perform assessments of the
                      team’s capabilities and readiness, and

                  d.	 Validation and periodic revalidation of team readiness
                      through rigorous exercises involving peer review and
                      assessment.

                  Recommendation #5: Amend the Illinois Terrorism Task
                  Force’s policy statement to include monitoring of response
                  team capability and readiness.

     Management Comments and OIG Analysis

             FEMA and State officials concurred with the finding and all
             recommendations concerning the opportunity to improve response
             team readiness. State officials said that the card-based
             credentialing system being implemented will be considered part of
             the State’s response to Recommendation 4.b. The credentialing
             system will assist in documenting training histories for individual
             response team members. With respect to Recommendation 4.d.,
             the State said that the frequency of team revalidations would take
             into consideration the availability of funds and the history of a
             team’s successful deployments.

             The Administrator, Federal Emergency Management Agency,
             needs to provide corrective actions for the recommendations and a
             plan to implement the actions within 90 days.


Illinois State Level Programs Could Be Considered a Best
Practice

             Some aspects of Illinois’ program management warrant
             recognition as “best practices.” The State of Illinois used a
             statewide Task Force and mutual aid organizations to plan,
             execute, and oversee homeland security programs and activities.
             The use of these organizations greatly enhanced the State’s success

       The State of Illinois’ Management of State Homeland Security Grants 

                 Awarded During Fiscal Years 2004 through 2006 


                                     Page 16
      in setting and meeting goals and objectives under the State
      Homeland Security Grant Program. Based on our experience of
      auditing State Homeland Security Grant programs nationwide, we
      believe this practice could be considered and applied to help
      improve grants management in other states and jurisdictions.

      Statewide Task Force Approach Contributed Significantly to
      Program Goals and Objectives

      The Illinois Terrorism Task Force was the driving force for all
      planning, budgeting, funding, program execution, and evaluation
      of subgrantee activities, including those of the statewide mutual aid
      organizations. The widely diverse composition of the Task Force
      membership and its involvement (via daily interaction and monthly
      meetings) in virtually all grant program and project activities
      enabled the State to manage the programs with constant input and
      assistance from sources across the State. As a result, the State has
      made significant progress in achieving statewide goals and
      objectives under the State Homeland Security Grant Program.

      Because of the Illinois Task Force approach, the State did not
      experience many of the program weaknesses we identified during
      our audits of homeland security grant programs in other states.
      Typical problems not found in the State of Illinois include:

      �	   An absence of measurable program goals, objectives, priorities;
      �	   Inadequate progress reporting and performance monitoring;
      �	   Incomplete and inaccurate funds accounting;
      �	   Inadequate equipment inventories and safeguards;
      �	   Improper procurement practices; and
      �	   Equipment purchased that was not needed or was not properly
           maintained.

      In our opinion, the Task Force approach warrants recognition as a
      best practice that could benefit other states or jurisdictions.

      Background. The homeland security duties of the Illinois
      Terrorism Task Force include: (1) developing the State’s domestic
      terrorism preparedness strategy, (2) advising the Illinois
      Emergency Management Agency on application and use of federal
      funding that relates to combating terrorism, and (3) annually
      reporting to the Governor on the activities, accomplishments, and
      recommendations of the Task Force.




The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 17
      As of March 2008, the Illinois Terrorism Task Force’s voting
      membership consisted of 63 different public and private
      organizations providing a wide spectrum of expertise and
      disciplines representing areas across the state. The organizations
      included federal, state, county, municipal, and private entities with
      expertise in public works, public health, fire services, emergency
      management, homeland security, investigations, government, law,
      law enforcement, communications, health care, agriculture,
      transportation, natural resources, education, environmental
      protection, and training.

      The Task Force was organized into 15 committees:

      �    Bioterrorism                              �   Public Information
      �    Communications                            �   Science and Technology
      �    Crisis Response and Prevention            �   Training
      �    Elected Officials                         �   Transportation
      �    Emergency Management                      �   Urban Area Security
      �    Fire Service Mutual Aid                        Initiative
      �    Information Technology                    �   Volunteers and
      �	   Law Enforcement Mutual Aid                     Donations/ Illinois
      �	   Private Sector                                 Citizen Corps Council

      On an alternating basis, the full Task Force or its committee
      chairmen meet every month to discuss and make decisions
      concerning various aspects of the Task Force’s mission, including
      strategic planning, budgeting, grant applications, fund
      expenditures, fund reallocations, policy and procedure
      development, problem resolution, threat assessments, equipment
      distribution, public relations, and program accomplishments. In
      addition to the monthly meetings, Task Force committee chairmen,
      Task Force members, and Task Force managers interact daily on
      grant program activities.

      Accomplishments. The Task Force annually reports its homeland
      security activities, accomplishments, and future plans to the
      Governor as required by Executive Order of the Governor of
      Illinois. These reports cite numerous accomplishments from using
      the DHS Homeland Security Grants, including the following items
      cited in the 2006 annual report (March 2007):

      �	   Establishing the foundation for statewide interoperable
           communications, including the installation of 700/800 Mhz
           radios in more than 1,400 public safety agencies, completing a
           system of communications towers, equipping hospitals with

The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 18
           medical emergency radios, and deploying nine mobile
           communications systems throughout the State,

      �	   Conducting two major exercises, one of which was the first
           large-scale pandemic flu exercise ever conducted, and

      �	   Establishing regional training centers at 18 locations
           throughout the State for training first responders.

      Guided by plans, budgets, and decisions approved by the Task
      Force, the actual use of Homeland Security Grant Program funds
      has been accomplished via major subgrants to mutual aid
      organizations and state agencies and, to a lesser extent, to counties,
      villages, educational institutions, and others.

      Mutual Aid Organizations Provided Focus and Interoperability

      Illinois uses two major mutual aid organizations as subgrantees to
      organize, equip, train, exercise, and oversee special response
      teams. This has resulted in the creation of 98 regional fire services
      and law enforcement special response teams that can be deployed
      quickly to any of the 102 counties within the State. This approach
      provided statewide focus and more efficiency and effectiveness
      than had the funds been allocated among the numerous counties,
      villages, and other local entities. The approach also has enabled
      the state to achieve interoperability among the teams in terms of
      equipment, training, and overall capabilities. In our opinion, this
      approach constitutes a best practice that could benefit other states
      or jurisdictions.

      We note that the State obtained Department of Homeland Security
      approval to treat the mutual aid organizations as local entities.
      Because the grant allocations to these organizations were
      considered part of the allocation to local jurisdictions, the State
      was in compliance with the requirement to allocate at least 80% of
      funds to local jurisdictions.

      The two statewide mutual aid organizations used by Illinois to
      accomplish most of its first responder mission are the Mutual Aid
      Box Alarm System and the Illinois Law Enforcement Alarm
      System. Together, with leadership and assistance from the Illinois
      Terrorism Task Force, these two organizations succeeded in
      assembling response teams from the local full-time and volunteer
      fire departments, county sheriffs’ departments, and municipal
      police departments. In total, 98 teams with about 30 members

The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 19 

      each were assembled from the nearly 70,000 fire fighters and law
      enforcement officers in Illinois, as follows.

      �	   The Mutual Aid Box Alarm System includes 43 Hazardous
           Materials Response Teams (equipped and trained to detect and
           mitigate the effects of hazardous materials at disaster sites) and
           40 Technical Rescue Teams (specially equipped and trained in
           searching for and rescuing entrapped victims during recovery
           from disasters).

      �	   The Illinois Law Enforcement Alarm System includes nine
           Weapons of Mass Destruction Special Response Teams
           (equipped and trained to deal with the human element in a
           contaminated or potentially contaminated environment) and six
           Mobile Field Force Teams (equipped and trained to handle
           civil disorder and to secure critical infrastructures and
           pharmaceutical distribution sites).

      In addition, the Illinois State Police assembled three state-level
      special response teams and was allocated grant funds to support
      these teams directly from the State Administrative Agency. These
      teams were not members of the mutual aid organizations.
      The mutual aid organizations developed standardized equipment
      and training lists for the special response teams. The organizations
      used grant funds allocated by the State Administrative Agency to
      purchase and distribute the equipment to the teams and to help
      finance the training and exercises needed for the teams. The Task
      Force Chairman told us that the Task Force did not allocate funds
      to each county because such a revenue-sharing approach would
      almost certainly hamper coordination. This could possibly result
      in up to 102 county strategies based simply on the DHS
      Authorized Equipment List. Because FEMA considered the
      mutual aid organizations local organizations and the mutual aid
      teams consisted of individuals from local governments, Illinois met
      the funding rule established by the Congress to allocate at least
      80% of grant funds to local jurisdictions.

      Some major benefits of Illinois’ use of the mutual aid
      organizations as subgrantees are as follows:

      �	   With the 98 special response teams at its disposal, the State can
           respond to an event anywhere in the state, usually within
           90 minutes.




The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 20 

      �	   The 98 mutual aid organization response teams, as previously
           indicated, include hazardous materials teams and technical
           rescue teams under the Mutual Aid Box Alarm System, as well
           as special response teams and mobile field force teams under
           the Illinois Law Enforcement Alarm System. The two
           organizations require that the teams in each of these categories
           be equipped and trained in accordance with standardized lists.
           Because the teams are identically equipped and trained,
           acquisition and oversight processes are standardized and
           interoperability between the teams is ensured.

      �	   The two mutual aid organizations have current membership
           and contact lists and, by using these lists, can reach their
           respective statewide teams without delay. Also, each
           organization has its own central dispatching center and can
           provide mutual aid response to any location in the State with
           one phone call.

      �	   Centralized procurement by the mutual aid organizations
           facilitates more effective and efficient inventory accountability
           and control than could be attained if procurement were
           decentralized among the end users (i.e., local fire and police
           organizations.)

      �	   Mutual aid organizations’ oversight of the special response
           teams’ capability and readiness reduces the monitoring burden
           on the Illinois Terrorism Task Force officials and staff, and
           helps ensure that the teams remain adequately equipped,
           trained, and exercised.

      We believe, the Administrator, Federal Emergency Management
      Agency, should consider evaluating the advantages and benefits of
      the Task Force/mutual aid organization approach for possible
      consideration by other states and jurisdictions.




The State of Illinois’ Management of State Homeland Security Grants 

          Awarded During Fiscal Years 2004 through 2006 


                              Page 21
Appendix A
Purpose, Scope, and Methodology

                    The purpose of the audit was to determine whether the State of
                    Illinois effectively and efficiently implemented the State
                    Homeland Security Grant Program, achieved the goals of the
                    program, and spent funds according to grant requirements. The
                    goal of the audit was to identify problems and solutions that would
                    help the State of Illinois prepare for and respond to terrorist
                    attacks. The audit enabled us to answer the following researchable
                    questions:

                    �	   Did the State use reasonable methodologies for assessing
                         threat, vulnerability, capability, and prioritized needs?

                    �	   Did the State appropriately allocate funding based on threats,
                         vulnerabilities, capabilities, and priorities?

                    �	   Has the State developed and implemented plans to measure
                         improvements in preparedness as a result of the grants and
                         have such measurement efforts been effective?

                    �	   Are the State’s procurement methodologies (centralized, local,
                         or combination) reasonable and in conformance with its
                         homeland security strategies?

                    �	   Does the State Administrative Agency have procedures in
                         place to monitor funds and activities at the local level to ensure
                         that grant funds are spent according to grant requirements and
                         state-established priorities? Have these monitoring procedures
                         been implemented and are they effective?

                    �	   Did the State comply with cash management requirements and
                         DHS financial and status reporting requirements for the grant
                         programs and did local jurisdictions spend grant funds
                         advanced by the State in a timely manner and, if not, what
                         caused the delays?

                    �	   Were grant funds used according to grant requirements and
                         state-established priorities?

                    �	   Was the time it took the State to get funds/equipment to first
                         responders (from the time the funds/equipment were available
                         to the State until they were disbursed/provided to the
                         jurisdiction) reasonable (auditor judgment), and if not, what
                         caused the delays?



              The State of Illinois’ Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                            Page 22
Appendix A
Purpose, Scope, and Methodology

                    �	   Are there best practices that can be identified and shared with
                         other states and DHS?

                    The scope of the audit included the following grant programs,
                    which are described in the background section of this report.
                    Although Urban Areas Security Initiative Grants were part of the
                    FY 2005 and FY 2006 State Homeland Security Grant Programs,
                    these awards were not included in the scope of the audit performed
                    by Foxx and Company.

                    �	   FY 2004 State Homeland Security Grant Program
                    �	   FY 2005 State Homeland Security Grant Program
                    �	   FY 2006 State Homeland Security Grant Program

                    The audit methodology included work at FEMA Headquarters,
                    State of Illinois offices responsible for the management of the
                    grants, and various subgrantee and first responder locations. To
                    achieve our audit objective we analyzed data, reviewed
                    documentation, and interviewed key state, subgrantee, and local
                    first responder officials directly involved in the management and
                    administration of the State of Illinois’ Homeland Security Grant
                    Programs.

                    We focused on three major subgrantee organizations: The Mutual
                    Aid Box Alarm System, the Illinois Law Enforcement Alarm
                    System, and the Illinois State Police. In addition to visiting these
                    three major subgrantee home-base locations, we visited 14 of their
                    first responder teams:

                    �	   Mutual Aid Box Alarm System teams in Naperville, DeKalb,
                         Champaign (2 teams), Springfield (2 teams), and the East St.
                         Louis area (2 teams).

                    �	   Illinois Law Enforcement Alarm System teams in Naperville,
                         Springfield, Alton, and Peoria.

                    �	   Illinois State Police Weapons of Mass Destruction team and
                         the Illinois Terrorism Intelligence Center in Springfield.

                    We also visited the Illinois Fire Service Institute in Champaign to
                    obtain general information on first responder training activities and
                    the history of the Illinois Homeland Security Grants Program in
                    general.



              The State of Illinois’ Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                            Page 23
Appendix A
Purpose, Scope, and Methodology

                    At each location, we interviewed responsible officials, reviewed
                    documentation supporting the State and subgrantees management
                    of the awarded grant funds including expenditures for equipment,
                    training, and exercises, and physically inspected some of the
                    equipment procured with the grant funds.

                    We conducted the audit between December 2007 and May 2008, in
                    accordance with the Government Auditing Standards as prescribed
                    by the Comptroller General of the United States (Yellow Book­
                    2007 Revision). Those standards require that we plan and perform
                    the audit to obtain sufficient, appropriate evidence to provide a
                    reasonable basis for our findings and conclusions based on our
                    audit objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based on our
                    audit objectives

                    Although this audit included a review of costs claimed, we did not
                    perform a financial audit of those costs. We were not engaged to
                    and did not perform a financial statement audit, the objective of
                    which would be to express an opinion on specified elements,
                    accounts, or items. Accordingly, we were neither required to, nor
                    did we express an opinion on, the costs claimed for the grant
                    programs included in the scope of the audit. Had we been required
                    to perform additional procedures, or conducted an audit of the
                    financial statements in accordance with generally accepted
                    auditing standards, other matters might have come to our attention
                    that would have been reported. This report relates only to the
                    programs specified and does not extend to any financial statements
                    of the State of Illinois.

                    While the audit work was performed and the report was prepared
                    under contract, the results are being reported by the DHS Office of
                    Inspector General to appropriate Federal Emergency Management
                    Agency officials and State of Illinois officials.




              The State of Illinois’ Management of State Homeland Security Grants 

                        Awarded During Fiscal Years 2004 through 2006 


                                            Page 24
Appendix B
Organization Chart




                               Illinois Emergency Management Agency
                                               Director




                                                                            Nuclear Safety
               Administrative Assistant II
                                                                           Policy Analyst III




                    Nuclear Safety                                          Nuclear Safety
                   Policy Analyst III                                      Policy Analyst III




                                                                            Nuclear Safety
                 Chief Legal Counsel
                                                                              Manager I




                    Nuclear Safety                                          Nuclear Safety
                     Manager II                                             Administrator II




    Illinois                                                 Bureau of            Bureau of Disaster
                                                                                                       Bureau of
   Terrorism        Bureau of Finance                       Information             Assistance &
                                                                                                       Operations
  Task Force                                                Technology              Preparedness




                                             Assistant Director




                  Bureau of Nuclear                Bureau of              Bureau of Radiation
                   Facility Safety           Environmental Safety               Safety




                   The State of Illinois’ Management of State Homeland Security Grants 

                             Awarded During Fiscal Years 2004 through 2006 


                                                      Page 25 

Appendix C
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary, Office of Policy
                      Assistant Secretary, Office of Public Affairs
                      Assistant Secretary, Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison


                      Office of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               The State of Illinois’ Management of State Homeland Security Grants 

                         Awarded During Fiscal Years 2004 through 2006 


                                             Page 26 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
